      U.S. Department of the Interior
      Office of Inspector General

                                    Audit Report
 Grant for Solid Waste and Wastewater Disposal Projects
                           Department of Public Works
                       Government of the Virgin Islands




Report No. 2003-I-0012                     March 2003
                                                                                   V-IN-VIS-0056-2002

                     United States Department of the Interior
                                     OFFICE OF INSPECTOR GENERAL
                                          Eastern Regional Office
                                        381 Elden Street - Suite 1100
                                          Herndon, Virginia 20170



                                                                                    March 31, 2003

Honorable Governor Charles W. Turnbull
Governor of the Virgin Islands
No. 21 Kongens Gade
Charlotte Amalie, Virgin Islands 00802

Subject:    Audit Report "Grant for Solid Waste and Wastewater Disposal Projects, Department of
            Public Works, Government of the Virgin Islands" (No. 2003-I-0012)

Dear Governor Turnbull:

        This report presents the results of our audit of a $5.4 million grant from the Department of
the Interior for solid waste and wastewater disposal projects administered by the Virgin Islands
Department of Public Works.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the U.S. Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.

       Please provide a response to this report by May 30, 2003. The response should provide the
information requested in Appendix 3 and should be addressed to Mr. Roger La Rouche, Assistant
Inspector General for Audits, Office of Inspector General, U.S. Department of the Interior,
1849 C Street, NW (MS-5341), Washington, DC 20240, with a copy to our Caribbean Field Office,
Federal Building - Room 207, St. Thomas, VI 00802.

                                                  Sincerely,


                                                  William J. Dolan, Jr.
                                                  Regional Audit Manager

cc:   Commissioner of Public Works
      Commissioner of Property and Procurement
      Commissioner of Finance
[ Page intentionally left blank ]
CONTENTS
                   Background .......................................................................... 1
INTRODUCTION       Objective and Scope ............................................................ 2
                   Prior Audit Coverage ........................................................... 2


                   Overview .............................................................................. 3
RESULTS OF AUDIT   Grant Reporting .................................................................... 3
                   Procurement Practices........................................................... 4
                   Property Management........................................................... 6
                   Drawdown Processing ........................................................... 8


                   ............................................................................................... 9
RECOMMENDATIONS

                   1. Prior Audit Reports ...........................................................12
APPENDICES         2. Response to Draft Report..................................................13
                   3. Status of Recommendations..............................................17




                                       i
[ Page intentionally left blank ]




                    ii
INTRODUCTION

               The Virgin Islands Code (3 V.I.C. Chapter 9) made the
BACKGROUND     Department of Public Works responsible for (1) repairing,
               maintaining, and operating the sewage disposal system in the
               Virgin Islands, (2) recommending the amount of fees charged
               for the system=s use, (3) enforcing and administering laws and
               regulations concerning the use of the system, (4) collecting and
               disposing of solid waste, and (5) managing public sanitary
               landfills.

               During the 17-year period of 1984 to 2001, the Environmental
               Protection Agency (EPA) filed six administrative orders of
               consent against the Government of the Virgin Islands for
               violations of Federal environmental laws related to solid waste
               and wastewater disposal. On September 27, 2001, the U.S.
               District Court for the Virgin Islands issued an order for
               non-compliance with all prior orders of consent. As a result,
               Public Works was required to submit a series of monthly,
               quarterly, and semiannual progress reports to EPA, the District
               Court Judge, and the Governor.

               In fiscal year 2000, the Office of Insular Affairs, U.S.
               Department of the Interior, awarded a $5.4 million grant to the
               Government for capital improvements to solid waste and
               wastewater systems. These funds were allotted for ten specific
               projects, including damage evaluation of and scrap metal
               removal from the Bovoni (St. Thomas) landfill, security fencing
               and fire investigation at the Bovoni and Anguilla (St. Croix)
               landfills, evaluation of the territorial sewage systems
               infrastructure, replacement of the Fig Tree (St. Croix) Pump
               Station isolation valve, and salary reimbursement for
               construction management and administration of all related
               projects. As of June 30, 2002, expenditures against the grant
               totaled $609,132.

               Public Works had 47 employees assigned to units responsible
               for various aspects of the solid waste and wastewater disposal
               systems throughout the Virgin Islands. The salary cost for four
               administrative employees was reimbursed from the Office of
               Insular Affairs grant. The Senior Manager for Federal
               Compliance Programs stated that the workload was sufficient
               for a staff of about 150 employees.



                                1
                The objective of the audit was to determine whether (1) the
OBJECTIVE AND   Department of Public Works complied with grant terms and
SCOPE           applicable laws and regulations; (2) charges made against grant
                funds were reasonable, allowable, and allocable; (3) contracts
                were awarded competitively and administered in accordance
                with applicable laws and regulations; and (4) funds received
                through electronic transfers were appropriately deposited and
                accounted for in the Government=s financial management
                system.

                To accomplish the audit objective, we reviewed grant-related
                documents at the Departments of Public Works, Property and
                Procurement, and Finance. The scope of the audit included
                grant-related transactions that occurred during fiscal years 2000
                and 2001, and other periods as appropriate.

                Our audit was made in accordance with the "Government
                Auditing Standards," issued by the Comptroller General of the
                United States. Accordingly, we included such tests of records
                and other auditing procedures that were considered necessary
                under the circumstances. The "Standards" require that we
                obtain sufficient, competent, and relevant evidence to afford a
                reasonable basis for our findings and conclusions.

                As part of our audit, we evaluated the internal controls related
                to the Office of Insular Affairs grant to the extent that we
                considered necessary to accomplish the audit objective.
                Internal control weaknesses in the areas of grant reporting,
                procurement practices, property management, and grant
                drawdowns are discussed in the Results of Audit section of this
                report. The recommendations, if implemented, should improve
                the internal controls in these areas.


                During the past 5 years, the Office of Inspector General has not
PRIOR AUDIT     issued any audit reports on Office of Insular Affairs grants to
COVERAGE        the Virgin Islands for solid waste and wastewater disposal
                projects. However, we issued a report on sewer system user
                fees in February 1998 and a report on EPA grants in September
                2000 (see Appendix 1).




                             2
RESULTS OF AUDIT
                  We found that $609,132 (11 percent) of $5.4 million in
OVERVIEW          available grant funds had been used for authorized purposes
                  during the 2 years since award of the grant. According to the
                  Senior Manager for Federal Compliance Programs, the balance
                  of grant funds of $4.8 million were not used more timely
                  because the Senior Manager=s section was not sufficiently
                  staffed to efficiently carry out assigned duties related to
                  managing the grant, seeking funding for and implementing the
                  consent decree, monitoring existing projects, and working on
                  the organizational structure for a proposed Waste Management
                  Authority. The Senior Manager also said that start-up tasks,
                  such as developing engineering specifications for construction
                  contracts, also delayed the use of grant funds.

                  Although expenditures of grant funds were for authorized grant
                  purposes, several administrative deficiencies existed, as
                  follows:

                  ‘    Public Works often did not submit all required financial
                       and progress reports to the Office of Insular Affairs, and
                       reports that were submitted were late.

                  ‘    Procurement files for contracts that were awarded
                       noncompetitively on the basis of "public exigency" did
                       not adequately document the applicability of the public
                       exigency exemption from competition.

                  ‘    Property management practices for equipment purchased
                       with grant funds were not sufficient to satisfactorily
                       account for and safeguard the equipment.

                  ‘    Drawdown requests were not promptly submitted to the
                       grantor agency and recorded in the appropriate project
                       accounts in the Government=s financial management
                       system.


                  The Department of Public Works did not ensure that financial
GRANT REPORTING   and progress reports were submitted in accordance with grant
                  requirements. The grant award notification required that
                  Financial Status Reports (SF-269) and Federal Cash
                  Transaction Reports (SF-272) be submitted within 30 days of
                  the end of each quarter. Grant-related correspondence from the

                                  3
              Office of Insular Affairs also required that project progress
              reports be submitted quarterly.

              Because the grant was awarded in December 1999, three sets of
              quarterly reports were due for the remainder of fiscal year 2000
              (January to September 2000). Additionally, four sets of
              quarterly reports were due for fiscal year 2001 (October 2000 to
              September 2001). However, Public Works did not submit any
              of these required reports. On December 3, 2001, the Office of
              Insular Affairs= grants manager wrote to Public Works stating
              that none of the reports had been received and requesting that a
              consolidated report be submitted for the entire period from the
              start of the grant (January 2000) to September 2001. Because
              Public Works did not submit the requested consolidated report,
              the Office of Insular Affairs withheld processing of three
              drawdown requests that were pending at the time. Public
              Works then submitted a consolidated Financial Status Report
              and a consolidated progress report in late January 2002.
              However, a consolidated Federal Cash Transaction Report was
              not submitted.

              Effective October 1, 2001 (fiscal year 2002), the Office of
              Insular Affairs changed the grant reporting requirement from
              quarterly to semiannually. The financial reports for the
              semiannual period ending March 31, 2002 were submitted on
              time on April 30, 2002. But the narrative progress reports were
              submitted seven days late on May 8, 2002.

              At the time of the audit, Public Works officials told us that
              required reports were not submitted timely because Utilities
              Division personnel were unfamiliar with the grant reporting
              requirements and had not coordinated with the grants
              management unit to timely complete the reports.

              At the October 1, 2002 exit conference on the preliminary draft
              of this report, the Senior Manager for Federal Compliance
              Programs stated that she now monitors the submission of the
              required grant reports to ensure that they are timely.


              The Departments of Public Works and Property and
PROCUREMENT   Procurement did not ensure that contract files for professional
PRACTICES     service and construction contracts for solid waste and
              wastewater projects adequately documented compliance with
              the justification requirements when "public exigency"
              exemptions from competitive procurement procedures were
              used. Public Works issued six noncompetitive contracts

                           4
totaling $425,762.

The Virgin Islands Code (31 V.I.C. '239) states that goods and
services can be purchased on the open market provided that
certain conditions exist, including (1) a declaration by the
Governor that a state of emergency exists and that certain goods
and services may be acquired on the open market or (2) a threat
to public health, safety, or welfare under emergency conditions
exists. Under the second scenario, the Code states that "such
emergency procurements shall be made with such competition
as is maximally practicable under the circumstances" and "all
procurements made pursuant to this item shall be clearly
stamped >PUBLIC EXIGENCY=." The Code further requires
that such noncompetitive purchases be approved by the
Governor and, in the case of public exigency purchases, "a brief
but concise description of the nature of the public exigency" be
attached to the requisition.

The Governor of the Virgin Islands issued three emergency
proclamations which authorized Public Works to purchase
supplies, materials, equipment, and contractual services for
repair of the sewer systems throughout the territory. The first
such proclamation was issued on March 7, 2000 and lasted for a
period of 90 days, expiring on June 6, 2000. The second
proclamation was issued on October 9, 2001 and also lasted for
a period of 90 days, expiring on January 8, 2002. And the third
proclamation was issued on March 27, 2002 and lasted for a
period of 120 days, expiring on July 26, 2002. Therefore, there
were gaps during which a declared state of emergency
technically did not exist. We noted that three of seven
grant-related contracts were issued during September and
October 2000, at which time a proclamation of emergency was
not in effect.

At the October 1, 2002 exit conference, the Senior Manager for
Federal Compliance Programs stated that it was intended that
the Governor=s emergency proclamations be effective during
successive periods without gaps. However, she explained,
delays at the Virgin Islands Department of Justice in drafting
and processing the emergency declarations resulted in lapses
from one declaration to the next.

The Department of Property and Procurement=s procurement
manual requires that procurement documents related to
emergency and public exigency conditions (1) be clearly
stamped with the words "Public Exigency," (2) be accompanied
by a letter of justification from the procuring agency clearly

             5
             describing the purpose of the purchase and the methodology
             and rationale for selecting the vendor/contractor, and (3)
             include evidence that at least three independent price quotations
             were obtained. For five of the seven contracts reviewed, the
             procurement documents were not stamped with the words
             "Public Exigency" and six of the contract files did not have a
             justification letter or evidence of at least three independent
             price quotations. For example:

                   - In the case of a contract for construction of a fence
             and gate at the Bovoni landfill, a February 13, 2001 letter from
             the Commissioner of Public Works to the Commissioner of
             Property and Procurement stated that Public Works had
             solicited bids and selected the apparent low bidder for the
             contract. However, we were unable to find documents
             evidencing the solicitation of bids and selection of the
             successful bidder at either Public Works or Property and
             Procurement. Public Works officials stated that the pertinent
             documents were sent to Property and Procurement, but Property
             and Procurement officials countered that they had never
             received such documents.

             As a result of inadequate documentation of the procurement
             process used for grant-related contracts, there was no assurance
             that the Government received the most advantageous price and
             best quality service for the six noncompetitive contracts, which
             had a total value of $425,762.


             Although local policies (Property and Procurement=s Property
PROPERTY     Manual) require that detailed property management records be
MANAGEMENT   maintained and that physical inventories be taken at least once
             every two years, Public Works did not have adequate control
             over equipment that was purchased with grant funds. As a
             result, the equipment was not properly accounted for and
             safeguarded from loss, damage, or theft.

             Specifically, we found that during the period of March to
             September 2001, Public Works purchased 17 equipment items,
             valued at $134,432, with funds from the Office of Insular
             Affairs grant. These items included computer equipment, an air
             conditioner, a Mack truck for the collection of scrap metal, and
             trash collection bins. A list of the items was not compiled by
             Public Works until it was requested by our auditors, and the list
             was based on information in the related procurement
             documents, not based on a physical inventory of the items.
             Additionally, the list did not include information on the location

                          6
             of the items, serial numbers of some items, and the assigned
             Government property tag numbers.

             To test the reliability of the information that was on the list, we
             performed a physical inventory of all 17 items. We found that
             12 of the items did not have Government property tags, and we
             could not locate two items, valued at $3,500. Regarding these
             two items, a Public Works employee stated that (1) a $600
             Hewlett-Packard laser printer was at the home of a
             departmental official and (2) a $2,900 Xerox digital copier was
             malfunctioning and was replaced by the local vendor with a
             Sharp digital copier.

             Regarding the Sharp copier, the vendor priced the item for
             exchange purposes at the same price ($2,900) that had been
             paid by Public Works for the Xerox copier. However, our
             research revealed that the same model of Sharp copier was
             available from 15 different online vendors for prices ranging
             from $712 to $906. Therefore, the vendor overcharged Public
             Works by as much as $2,000 on the exchange (before
             considering shipping and local tax costs, which we estimated at
             less than $200). Accordingly, Public Works should seek a
             refund from the vendor of the difference between the price paid
             for the original Xerox copier and a fair price for the
             replacement Sharp copier.

             During our review of grant-related property, a Public Works
             official told us that a physical inventory of all Public Works
             equipment had been performed in March 2002 as part of a
             governmentwide effort by Property and Procurement to update
             property management records. However, we could not obtain a
             copy of the updated property list because the computer where
             the data was stored had printing limitations.

             At the October 1, 2002 exit conference, the Senior Manager for
             Federal Compliance Programs stated that the grant-related
             property had since been tagged and an updated properly list
             prepared.




             The Virgin Islands Office of Management and Budget and the
DRAWDOWN     Department of Finance did not timely process grant-related
PROCESSING   documents required to complete the drawdown process.
             Specifically, we found that:


                          7
     - The Office of Management and Budget did not have
formal procedures for processing drawdown requests received
from Public Works and forwarding those requests to the Office
of Insular Affairs. Drawdown requests were delayed an
average of 14 days at the Office of Management and Budget
before being forwarded to the Office of Insular Affairs.

       - The Department of Finance did not have the necessary
staff resources to promptly process the recording of grant funds
in the appropriate project accounts in the financial management
system. Such recording was delayed an average of 26 days.

During the period of June 2001 to June 2002, Public Works
submitted 15 drawdown requests totaling $588,904 to the
Office of Management and Budget for processing. As of
July 17, 2002, drawdowns totaling $563,208 had been
processed by the Office of Insular Affairs, and $489,112 of that
amount had been credited to the appropriate project accounts in
the financial management system.




             8
RECOMMENDATIONS

                          We recommend that the Governor of the Virgin Islands direct
TO THE GOVERNOR OF the Commissioner of Public Works to:
THE VIRGIN ISLANDS
                               1. Establish and enforce procedures and provide training
                          to appropriate personnel to ensure that Public Works grant
                          managers prepare and submit financial and program progress
                          reports to the Office of Insular Areas within the required
                          reporting deadlines.

                                2. Establish and enforce procedures to ensure that
                          required justification documents are prepared and maintained
                          for noncompetitive procurements made under the emergency
                          and public exigency provisions of the Virgin Islands Code.

                                3. Establish and enforce procedures to ensure that
                          property control records are maintained and biennial physical
                          inventories of equipment are performed, as required by Federal
                          and local property management regulations.

                                4. Require that the computer vendor establish a fair price
                          for the replacement copier and refund to Public Works the
                          difference between that fair price and the $2,900 paid by Public
                          Works for the original copier.

                          We also recommend that the Governor of the Virgin Islands
                          direct the Director of the Office of Management and Budget to:

                                5. Establish and implement procedures to ensure that
                          grant drawdown requests received from Public Works and other
                          Government agencies are processed and forwarded in a timely
                          manner to the appropriate grantor agency.

                          We further recommend that the Governor of the Virgin Islands
                          direct the Commissioner of Finance to:

                                6. Reassign available staff to the appropriate unit of the
                          Department of Finance to assist in recording grant drawdowns
                          in the appropriate project accounts in the financial management
                          system.




                                           9
                    The November 7, 2002 response (Appendix 2) to the draft
AUDITEE RESPONSE    report from the Commissioner of Public Works expressed
                    concurrence with Recommendations 2 and 4, partial
                    concurrence with Recommendation 3, and nonconcurrence with
                    Recommendation 1. The response did not address
                    Recommendations 5 and 6, which were directed at the Office of
                    Management and Budget and the Department of Finance,
                    respectively.


                    Based on the response, we consider Recommendation 3
OFFICE OF           resolved and implemented, Recommendations 2 and 4 resolved
INSPECTOR GENERAL   but not implemented, and Recommendations 1, 5, and 6
REPLY               unresolved (see Appendix 3).

                    Specific comments made by the Commissioner of Public Works
                    in his response to the draft report and our replies to the
                    Commissioner=s comments follow:

                    Recommendation 1. Nonconcurrence.

                         Public Works Response. The response stated, "The
                    reporting time-frame and the number of delinquent reporting
                    periods discussed by the audit are incorrect." The response
                    then provides a timeline of the reporting requirements and
                    concludes that "only two reporting periods were missed B
                    10/1/00 through 9/30/01, as opposed to the seven periods
                    discussed by the auditor." The response also stated, "There is
                    no need for special training in order to submit the required
                    reports on a timely basis." The response package included a
                    copy of the notification of grant award that was signed and
                    accepted by the Governor in June 2000.

                          Office of Inspector General Reply. The copy of the
                    notification of grant award contained in the grant files at the
                    Office of Insular Affairs was signed and accepted by the
                    Lieutenant Governor (as "Acting Governor") in December
                    1999. Based on this document, the Office of Insular Affairs
                    considered the start of the grant period to be January 2000.
                    Therefore, three sets of quarterly reports would have been due
                    for the remainder of fiscal year 2000 (for the quarters ended
                    March 31, June 30, and September 30, 2000). Additionally,
                    four sets of quarterly reports were due for fiscal year 2001 (for
                    the quarters ended December 30, 2000 and March 31, June 30,
                    and September 30, 2001).

                    The Public Works response maintains that because the Office of

                                10
Insular Affairs (in December 2001) allowed Public Works to
submit consolidated reports for the entire period from the start
of the grant to September 2001, only one reporting period was
missed. We do not agree with this interpretation. The Office of
Insular Affairs only gave Public Works permission to submit
consolidated reports for the entire grant period after Public
Works was already delinquent in submitting quarterly reports
for the period of January 2000 to September 2001
(encompassing a total of seven quarterly reporting periods). In
any event, Public Works did not timely submit the consolidated
reports, prompting the Office of Insular Affairs to withhold
processing of grant drawdown requests until the consolidated
reports were finally submitted in late January 2002.

Effective October 1, 2001 (the start of fiscal year 2002), the
Office of Insular Affairs changed its standard grant reporting
requirement from quarterly to semiannually. The first
semiannual report, for the period October 2001 to March 2002,
was due by May 1, 2002. Although financial reports were
submitted within this deadline (on April 30, 2002), narrative
progress reports were not submitted until one week after the
deadline (on May 8, 2002).

Regarding training, Utilities Division personnel told us that
they were not familiar with the grant reporting requirements.
Hence, our recommendation that Public Works should provide
appropriate training and written guidance to all personnel who
have responsibility for preparing and/or processing grant
financial and narrative progress reports for submission to
grantor agencies.      Accordingly, we believe that the
Commissioner of Public Works should reconsider the
recommendation and submit a plan of action for
implementation (see Appendix 3).




            11
APPENDIX 1 - PRIOR AUDIT REPORTS
                           The September 2000 report "Environmental Protection Agency,
OFFICE OF INSPECTOR Department of Public Works, Government of the Virgin
GENERAL REPORTS     Islands" (No. 00-I-696) stated that Public Works was not
                           effective in administering Federal grants awarded by EPA.
                           Specifically, Public Works did not (1) effectively use funds for
                           grants that it administered, (2) maintain grant award
                           notification documents and validate drawdown requests for
                           grants that the Army Corps of Engineers administered, (3) file
                           financial status reports and requests for reimbursement in a
                           timely manner, (4) establish procedures for processing grant
                           drawdowns through electronic transfers, (5) maintain property
                           control records, and (6) provide sufficient oversight of costs
                           incurred by the Corps of Engineers.

                           The February 1998 report "Sewage System User Fees,
                           Government of the Virgin Islands" (No. 98-I-263) stated that
                           the Government did not adequately administer the sewage
                           system user fee program. Specifically, (1) Public Works did
                           not ensure that the fee schedule reflected the actual cost of
                           operating the sewage system, that new users paid the
                           appropriate connection fees, and that all sewage system users
                           were included in the master file for billing purposes; (2) the
                           Tax Assessor=s Office did not adequately coordinate with
                           Public Works to ensure that sewage fees were accurately
                           recorded on real property tax bills; and (3) the Department of
                           Finance did not ensure that an accurate accounts receivable
                           listing was maintained, that payments were received from all
                           users, and that sewage system fee collections were properly
                           accounted for.

                           Our current review found that Public Works did not implement
                           8 of the 12 recommendations in the report on EPA grants and
                           none of the 4 recommendations in the report on sewage system
                           user fees that were addressed to Public Works.




                                           12
APPENDIX 2 - RESPONSE TO DRAFT REPORT




       [Attachments not included by the Office of Inspector General]



                                        13
     APPENDIX 2
       Page 2 of 4




14
     APPENDIX 2
       Page 3 of 4




15
     APPENDIX 2
       Page 4 of 4




16
APPENDIX 3 - STATUS OF RECOMMENDATIONS
  Finding/Recommendation
         Reference              Status                        Action Required

            1              Unresolved.          Reconsider the recommendation and provide
                                                a response that states concurrence or
                                                nonconcurrence with the recommendation.
                                                If concurrence is stated, provide a corrective
                                                action plan that includes the target date and
                                                title of the official responsible for
                                                implementation of the recommendation.

            2              Resolved, not        Provide a copy of the procedures developed
                           implemented.         to ensure that required justification
                                                documents are prepared and maintained for
                                                noncompetitive procurements made under
                                                emergency and public exigency provisions
                                                of the Virgin Islands Code.

            3              Implemented.         No further action is required.

            4              Resolved, not        Provide documentation showing that the
                           implemented.         vendor has refunded the Department of
                                                Public Works for the overpayment received
                                                on a replacement photocopier.

         5 and 6           Unresolved.          Reconsider the recommendations and
                                                provide a response that states concurrence or
                                                nonconcurrence with the recommendations.
                                                If concurrence is stated, provide a corrective
                                                action plan that includes the target date and
                                                title of the official responsible for
                                                implementation of the recommendations.




                                           17
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240

              Phone:         24-Hour Toll Free                 800-424-5081
                             Washington Metro Area             202-208-5300
                             Hearing Impaired (TTY)            202-208-2420
                             Fax                               202-208-6081

              Internet:




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
